      Review of the Purchase Card Program at the Railroad Retirement Board
                         Report No. 04-04, June 21, 2004

                                        INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of the
purchase card program at the Railroad Retirement Board (RRB).

Background

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2003, the RRB paid approximately $8.9 billion in railroad retirement and survivor
benefits to about 666,000 beneficiaries. The RRB also paid benefits of $94 million to
37,000 claimants under the Railroad Unemployment and Sickness Insurance Act
(RUIA).

The General Services Administration (GSA) initiated a government-wide credit card
program to streamline the procurement process for low dollar goods and services. This
program allows authorized Federal employees to make official government purchases
and also reduces administrative costs associated with low dollar purchases. The RRB
selected Citibank Corporation from the GSA schedule, agreeing to all the terms and
conditions established by GSA and Citibank.

The RRB uses the credit card for individual purchases of goods and services that do not
exceed $25,000. Approximately nine percent of the RRB’s staff has purchase cards.
The RRB cardholders charged about $422,000 in FY 2002 and $453,000 in FY 2003.1

Recent Congressional testimony and General Accounting Office reports have shown
that some Federal agencies do not have adequate internal controls over their purchase
card programs. Without effective controls, Federal agencies have little assurance that
abusive, improper and fraudulent purchases can be prevented and detected.

The RRB’s Division of Acquisition Management in the Office of Administration is
responsible for issuing cards and providing oversight to the RRB purchase card
program. This division reviews credit card applications and determines whether to issue
or deny cards. Acquisition Management sets the dollar limits on the card and sends a
letter of delegation to the individual. They inform the bureau director if an application is
denied or if there are changes to requests. After approval, the division sends the
application to Citibank, and Citibank mails the purchase card directly to the employee.


1
 The two billing years for the purchase card which were in the scope of our review ran from September
26, 2001 to September 26, 2002 and from September 26, 2002 to September 25, 2003. As these periods
closely approximate the agency’s fiscal year, we used data from the billing year statements for our
statistics.


                                                 1

They also obtain and review monthly reports from the Citibank on-line system of
cardholder transactions.

The Bureau of Fiscal Operations (BFO) receives a monthly consolidated statement from
Citibank and pays the RRB purchase card charges. Agency officials designated to
certify purchase card charges for payment submit approved individual purchase card
statements to BFO. BFO records the expenditure in the agency’s accounting records
and reconciles the individual cardholder statements to the consolidated statement.

The RRB’s 2003-2008 Strategic Plan’s second goal is to serve as “responsible stewards
for our customers’ trust funds and agency resources.” A well-controlled purchase card
program contributes to this agency goal.

Objective, Scope and Methodology

The objective of this review was to evaluate the RRB’s controls over the purchase card
program. This scope covered most purchase card charges in FYs 2002 and 2003. To
accomplish this review, we performed work to assess card issuance and administration,
monitoring and oversight of card use, and the payment of invoices. Our work included:

    •	 Analyzing laws, regulations, policies, procedures and internal controls relevant to
       the purchase card program, including the Citibank agreement.
    •	 Obtaining and reviewing monthly purchase card invoices, and the master list of
       purchase card holders.
    •	 Reviewing supporting documentation for a random sample of 111 and a
       judgmental sample of 51 purchase card transactions from the universe of 2,745
       transactions for FYs 2002 and 2003. We determined if charges were
       appropriate, properly authorized, and adequately documented.
    • Reviewing reports containing information on rejected transactions.
    •	 Examining purchase card documentation to assess controls over the
       authorization process for new cardholders and the cancellation process for
       separated employees.
    • Reviewing reports to analyze the level of card use by cardholders.
    •	 Analyzing BFO’s reconciliation process for payment of the monthly credit card
       bill.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objective and scope of this review. The scope of our
review did not test whether appropriate purchase card charges were properly recorded
as accountable property since a prior OIG review addressed that objective.2 Fieldwork
was conducted at the RRB headquarters in Chicago, Illinois from October 2003 through
April 2004.


2
 OIG Inspection Report: “Actions Taken To Improve Internal Control Over Fixed Assets,” Report No.
03-08, August 20, 2003.


                                                  2

                                    RESULTS OF REVIEW 


Our review indicates that the RRB should strengthen operational and management
controls to improve the effectiveness and efficiency of the purchase card program.
Most of our findings indicate the need for the agency to provide clear guidance to
purchase card holders, update procedures and important documents relating to the
program, improve controls over the program, and provide refresher training that
emphasizes good controls over card purchases.

Our review of sample transactions did not uncover any instances of fraudulent, wasteful,
or abusive purchases. While we did identify instances of unauthorized purchases, the
cases were already identified and the employee had reimbursed the agency.
Nevertheless, an improvement in the control environment is needed to ensure
effectiveness of the purchase card program.

The details of our findings and recommendations follow.


Weakness in Cardholder Administration

The RRB does not periodically review whether existing cardholders still need a
purchase card at their approved credit limit. In addition, the RRB is not adequately
controlling the process of canceling purchase cards when a cardholder leaves the
agency.

The RRB’s purchase card directives, “Procedures for Using the Government
Commercial Credit Card Service,” state that the Director of Supply and Service3 may
delegate authority for purchases up to $25,000 to individuals that have a need for the
authority. Lack of card activity warrants management’s review of the need for a
purchase card. Agency management should be aware of charge limits of their
cardholders.

During the 2003 billing year, 44 of 94 RRB purchase cardholders made five or less
purchase card transactions. Nine individuals had no transactions and seven
cardholders had only one transaction. In such instances, there is no procedure or
directive which instructs RRB management to review whether individuals still need
purchase cards and if credit limits are appropriate. While the OIG recognizes that level
of use is not the only factor to consider in such a review, we believe that it is significant.

Upon separation from the agency, the cardholder must cut the card in half and return it
to the designated approving official. The approving official will return the card to the
RRB’s purchase card program administrator who then cancels the card account. As an

3
 The RRB has abolished the Director of Supply and Service position and reassigned these purchase card
responsibilities to the Chief of Acquisition Management.


                                                 3

additional control, the Bureau of Human Resources provides a monthly report of
separated employees to the purchase card program administrator. The administrator is
to review these reports to determine if any separated employees were purchase
cardholders. If a purchase cardholder is identified, the administrator should ensure that
the individual’s purchase card has been cancelled.

Our review of FYs 2002 and 2003 monthly reports of separated employees identified
seven individuals who had purchase cards. The program administrator was unable to
determine when he cancelled these purchase cards because the agency does not
maintain records of card deactivation. In addition, not all monthly reports of separated
employees were in the program administrator’s file. Therefore, there is no evidence to
support that cards are cancelled in a timely manner. The purchase card program
administrator did not cancel the account for a former employee who separated in
August 2001 until after the OIG advised that the account was active in January 2004.
There were no purchases made with this card after the employee separated.

Because of weaknesses in cardholder administration, the RRB’s financial exposure to
the purchase card program is increased and the program is more difficult to manage.
RRB individuals who currently have a card may not need one. Also, RRB managers will
not be able to monitor the appropriateness of credit limits. In addition, the lack of
control over the cancellation process for separated employees also increases the
agency’s risk of unauthorized, abusive and/or fraudulent purchases.

Recommendations

The OIG recommends that the Office of Administration:

   1. 	 Advise RRB management to institute procedures to periodically review a
        cardholder’s continuing need for a purchase card and the appropriateness of the
        credit limit. A suitable time for this type of review would be when a purchase
        card is due to expire.

   2. 	 Maintain all monthly reports of separated employees and document, on a
        monthly basis, cancellation of the purchase cards for separated employees.

Management’s Response

Management in the Office of Administration concurs with both recommendations and
will institute procedures to review a cardholder’s continuing need with the next renewal
cycle of half the issued cards by January 2005. Management also advised that they
have implemented the recommendation concerning separated employees. A complete
copy of the responses is included in Appendix I.




                                            4

Incomplete Documentation of Purchase Cardholders

Our review of files maintained by the Division of Acquisition Management revealed that
the agency does not have complete and sufficient documentation to show that current
cardholders are properly authorized to use their purchase card.

The RRB purchase card procedures state that the Office of Administration will serve as
the focal point for coordination of the applications, issuance and destruction of cards,
establishment of reports, and administrative funding. The application process includes
the cardholder’s request memorandum, the purchase card application and the
delegation of authority letter. The Chief of Acquisition Management is required to sign a
“Delegation of Authority” letter and provide a copy to cardholders before they begin
using the card. This letter authorizes use of the purchase card and specifies the credit
card limit.

Of the 94 cardholders in July 2003, the agency had complete documentation for 12
cardholders. However, Acquisition Management had no authorization documentation
on file for 65 current cardholders and had incomplete documents for the remaining 17
cardholders.

Acquisition Management did not maintain complete documentation of the application
process. Some purchase card files also could not be located due to a change in the
agency program administrator in 2003. As a result of this inadequate documentation,
there is a risk that cardholders may not have been properly authorized for purchase
cards.

Recommendation

The OIG recommends that the Office of Administration:

   3. 	 Obtain the necessary documentation to recertify the 82 cardholders with
        incomplete purchase card files. At a minimum, the documentation should include
        the “Delegation of Authority” letter.

Management’s Response

The Office of Administration concurs and will obtain the documentation to recertify the
82 cardholders by August 2004. The complete response is included in Appendix I.


Inadequate Documentation Supporting Purchases

The RRB sometimes lacks adequate and complete documentation to support purchase
card transactions. In some cases, there is no documentation to show that the RRB
actually received an item ordered from a vendor. In other cases, the documentation did




                                            5

not clearly identify what was purchased or provide an independent source of support for
the transaction.

The Treasury Financial Manual, Vol. 1, Part 4, Section 4525, requires each agency to
have its own internal procedures for using purchase cards. The RRB’s purchase card
procedures state that when a purchase is “made over the counter, the cardholder
should obtain a customer copy of the charge slip, which will become the accountable
document.” These procedures also state that when making purchases by telephone,
the cardholder is to document the transaction on a log and attach any shipping
documents associated with the order.

At the end of each monthly billing cycle, cardholders must reconcile the information on
the purchase card statements to supporting documentation. The cardholders sign the
statements, attach all supporting documentation and forward the documents to their
designated approving officials who review and certify the monthly statements. These
officials then forward a copy of the monthly statement to BFO. The approving officials
should retain the supporting documentation on purchases.

Sometimes purchases made by Acquisition Management employees are delivered to
other agency departments. In these instances, the RRB’s Administrative Circular BSS-
14, Procurement for Goods and Services, indicates that the receiving employee shall be
required to sign and date the packing slip. A copy of this packing slip is to be forwarded
to the Office of Administration’s Purchasing Division for inclusion in the purchase order
file.

Of the sample of 162 purchase card transactions that the OIG reviewed, we determined
that there was insufficient documentation in 41 cases. The occurrences and reasons for
insufficient documentation are detailed below.4

    •	 Cardholders did not sufficiently document actual receipt of the item(s) for 25
       orders, including many telephone and Internet orders. There was no clearly
       identified documentation (packing lists, shipping documents, etc.) maintained by
       the cardholders or approving officials supporting receipt of the orders.
    •	 The Division of Purchasing made a purchase and the packing slip signed by the
       designated employee in the receiving office or bureau was not included in the
       purchase order file for six cases.
    •	 Documentation used to support 11 purchase card transactions either did not
       sufficiently describe the purchased goods or services or support the amount
       charged to the card. It is critical that supporting documentation provided by the
       cardholder describe the purchase because this is the only source of this
       information. The credit card bill and other reports do not provide information on
       what was purchased.



4
 Some cases had multiple reasons cited for insufficient documentation. This accounts for the difference
between the 41 cases and the 46 total cases in the detail.


                                                   6

   •	 No vendor records (invoice, receipt, shipping documents, etc.) were used to
      support four purchase card transactions. The only support was either internal
      RRB e-mail or handwritten notes from the cardholders.

The Office of Administration has not updated procedures to clearly address the need to
document actual physical receipt and acceptance of items acquired with the purchase
card. Procedures also fail to provide details on documentation for Internet transactions.
In addition, the Office of Administration has not updated the purchase card procedures
to include the current Administrative Office, Finance Office, and Dispute Office contacts,
as well as the Contracting Officer’s Technical Representative.

By not documenting the receipt and acceptance of some goods acquired through
Internet and telephone orders, the RRB could pay for items it never receives. Also,
insufficient documentation of purchase card transactions and outdated procedures
increase the risk of abusive, unauthorized or potentially fraudulent purchases.

Recommendations

The OIG recommends that the Office of Administration:

   4. 	 Revise the RRB’s purchase card procedures to provide more specific guidance
        on what kind of documentation should be obtained to support the ordering,
        receipt and acceptance of various types of purchases, including telephone and
        internet transactions.

   5. 	 Review and update the purchase card procedures and Administrative Circular
        BSS-14, including the current Administrative Office, Finance Office, Dispute
        Office, and Contracting Officer’s Technical Representative contacts.

Management’s Response

The Office of Administration agrees and will complete the recommended revisions of the
purchase card procedures by September 2004. A complete copy of the response is
included in Appendix I.


Merchant Category Code Control Can Be Improved

The agency’s usage of the Merchant Category Code (MCC) control is inadequate to
minimize unauthorized purchase charges. The MCC is a code assigned to a group of
vendors offering similar services and products. It is designed to provide the program
participants with a method to limit usage of the card to approved vendors or approved
categories of purchase.

The RRB purchase card procedures provide detailed directives on authorized and
unauthorized usage of the purchase card. The procedures state that “without



                                            7

exception, the Citibank card may only be used to pay for authorized US Government
purchases.” They further state specific instances in which the purchase card is not
authorized for use, including cash advances, rental or lease of motor vehicles, and
telephone calls. The Citibank Government Purchase Guide assigns and delineates
responsibilities for participants. The guide also specifies card parameters for MCC
inclusions and exclusions.

The OIG reviewed the recent Citibank listing of MCC codes to evaluate the
appropriateness of current code restrictions at the agency. Codes have not been
restricted for the following vendor categories:

   •	 Specific car rental agencies, although other transportation and travel services,
      including various automobile services and the general category, “Automobile
      Rental,” is restricted.
   •	 Certain other retail establishments where, in most instances, authorized
      purchases probably should or would not be made. Examples include pawn
      shops, antique shops, salvage/wrecking yards, second hand stores, and various
      recreational purchases such as timeshares, trailer parks, golf courses, and
      amusement parks.

Acquisition Management has not adequately directed Citibank to restrict the MCC list to
fully comply with the agency’s regulation. In September 2001, the agency requested
that Citibank remove all MCC restrictions from agency purchase cards. Although
restrictions were subsequently re-established in October 2002, they remain insufficient
to ensure adequate controls over purchase card usage.

Inadequate restriction increases the risk that agency staff will improperly use the
purchase cards for abusive, inappropriate and/or potentially fraudulent use. During our
review of sampled transactions, we identified several charges for personal items and
travel in which cardholders improperly used the purchase card. The cardholders
notified the approving official and later repaid the agency in all of these instances.
However, restricting the MCC list for the appropriate vendor categories would have
been an effective preventive control procedure in many of these instances.

Recommendation

The OIG recommends that the Office of Administration:

   6. 	 Review Citibank’s current MCC list to identify additional codes to restrict, and
        then direct Citibank to update the restricted MCC codes for the RRB.

Management’s Response

The Office of Administration concurs and will complete their review and update of the
MCC list by August 2004. The complete response appears in Appendix I.




                                             8

Approving Official Signature Cards Not Maintained by BFO

BFO does not maintain signature cards of the approving officials on file. The bureau
does not verify whether the person signing as the approving official for submitted
purchase cardholder statements was actually designated as such.

RRB procedures state that when the account information is submitted to the purchase
card administrator, a signature card must be completed that states the approving official
may certify purchase card invoices for payment. A copy of the signature should be
forwarded to BFO’s Accounts Payable Division after completion. Approving officials
review the cardholder’s monthly statements and serve as liaison with the program’s
contact officials. They certify the cardholder’s monthly statements and ensure that
payments are for authorized purchases made in accordance with agency regulations.

Our review of files revealed that, although Acquisition Management maintains a list of
approving officials, they had not obtained the corresponding signature cards or
forwarded the listing of approving officials to BFO. BFO, in turn, has not requested a
listing of approving officials and file of signature cards for the designated approving
officials.

Without full knowledge of the current approving officials and signature cards, there is a
higher risk that BFO may process purchase card payments of non-authorized persons
and fraudulent charges.

Recommendations

The OIG recommends that:

   7. 	 The Office of Administration obtain signature cards of the approving officials and
        forward them to BFO, and

   8. 	 BFO verify, on a periodic basis, the signatures of the approving official of
        submitted credit card statements.

Management’s Response

Managements in the Office of Administration and BFO agree with the recommendations
directed to their bureaus. The Office of Administration will obtain signature cards by
August 2004 and BFO will begin verification as soon as they receive the cards from the
Office of Administration. A complete copy of the response from each bureau is included
in Appendix I and II, respectively.




                                             9

Refresher Training for Cardholders and Approving Officials Is Needed

The RRB does not have a detailed training program for purchase cardholders and
approving officials. The deficiencies identified in our review of purchase card
transactions support the need for refresher training. There was insufficient
documentation in nearly 25 percent of the sample cases. We also identified 14 cases
for which the RRB may have improperly paid sales tax. The Citibank Cardholder Guide
states that purchases made by the Federal government are generally exempt from state
and local taxes.

The Treasury Financial Manual requires that each participating agency establish a
training program on the government-wide credit card procedures and small purchasing
regulations. The manual suggests that cardholders, approving officials, and billing
office employees who are involved in the program should attend agency training.

RRB officials did not consider refresher training since agency and Citibank purchase
card procedures are available on the agency’s Intranet. Citibank also provides a
Cardholder Guide when they issue a new card. However, inadequate training increases
the risk of inappropriate, abusive and/or unauthorized purchases. Refresher training
also helps to ensure that purchase cardholders and approving officials remain
knowledgeable of good practices for using the government cards.

Recommendation

The OIG recommends that the Office of Administration:

   9. 	 Establish and document a formal training program for the purchase cardholders
        and approving officials.

Management’s Response

The Office of Administration concurs, and will establish and document a training
program by January 2005. The complete response appears in Appendix I.




                                           10

